                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Status of Corrective Actions in
                    Response to 2008 Report,
                    “Framework for Developing
                    Tribal Capacity Needed in Indian
                    General Assistance Program”

                    Report No. 13-P-0057               November 27, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                                Patrick Gilbride
                                                    Erin Barnes-Weaver
                                                    Todd Goldman
                                                    Luke Stolz




Abbreviations

AIEO           American Indian Environmental Office
EPA            U.S. Environmental Protection Agency
FY             Fiscal Year
GAP            Indian General Assistance Program
MATS           Management Audit Tracking System
OIG            Office of Inspector General
PO             Project Officer
PPG            Performance Partnership Grant
TEA            Tribal Environmental Agreement


Cover photo:       Image from EPA’s AIEO tribal portal website.




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:      OIG_Hotline@epa.gov                    write:      EPA Inspector General Hotline
  phone:       1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:         202-566-2599                                       Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                          13-P-0057
                                                                                                 November 27, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Status of Corrective Actions in Response to 2008
The Indian Environmental
                                    Report, “Framework for Developing Tribal Capacity
General Assistance Program          Needed in Indian General Assistance Program”
Act of 1992 provides the U.S.
Environmental Protection             What We Found
Agency (EPA) the authority to
award grants to tribal              EPA has taken a number of actions to address findings and
governments to build capacity       recommendations from the Office of Inspector General’s 2008 report,
to administer environmental         including developing the GAP Online database, drafting a GAP guidebook,
programs. The Act authorized        and revising GAP guidance. EPA is also engaging or will engage in tribal
EPA to provide General              consultation for both the guidebook and guidance. EPA said it intends to
Assistance Program (GAP)            finalize its revised GAP guidance, including the guidebook, by May 2013.
grants to federally recognized      EPA has focused on ensuring that GAP work plans include intermediate and
tribes and tribal consortia. We     long-term outcomes/goals. EPA said it has made an incremental shift in the
reviewed actions taken by EPA       way it distributes GAP funding and said it will make additional changes
to address a 2008 report by our     based on internal conversations and information in GAP Online.
office on tribal capacity. The
2008 report contained three         Although EPA certified all actions as completed in its Management Audit
recommendations to EPA on           Tracking System, corrective actions are still in progress and we could not
developing a framework for          test their effectiveness. EPA should have an implementation period
achieving capacity; developing      following issuance of the final GAP guidance and guidebook before we
environmental plans; and            evaluate how well tribes and EPA regions operate under the new guidance.
revising the grant funding
formula to better reflect prior      Recommendations and Planned Agency Corrective Actions
progress, needs, and long-term
goals.
                                    We recommend that the Assistant Administrator for International and Tribal
                                    Affairs complete implementation of corrective actions initiated in response to
This report addresses the           the 2008 report and denote May 2013 as the date to implement actions to
following EPA Goal or               address the 2008 report recommendations. The Agency accepted this
Cross-Cutting Strategy:             recommendation and plans to complete corrective actions by May 2013.
 Strengthening state,
  tribal, and international
                                     Noteworthy Achievements
  partnerships
                                    Since its launch in 2007, GAP Online has provided grantees and EPA
                                    project officers with a centralized tool for creating work plans and reporting
                                    progress. EPA also provided GAP Online training to each region.



For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20121127-13-P-0057.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                       November 27, 2012

MEMORANDUM

SUBJECT:	 Status of Corrective Actions in Response to 2008 Report,
          “Framework for Developing Tribal Capacity Needed in Indian
          General Assistance Program”
          Report No. 13-P-0057


FROM:	         Arthur A. Elkins, Jr.

TO:	           Michael Stahl
               Deputy Assistant Administrator for International and Tribal Affairs


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

You are required to provide a written response to this report within 60 calendar days. You should
include planned corrective actions and completion dates for all unresolved recommendations.
Your response will be posted on the OIG’s public website, along with our memorandum
commenting on your response. Your response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the
public; if your response contains such data, you should identify the data for redaction or removal
along with corresponding justification. We have no objections to the further release of this report
to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Patrick
Gilbride, Director for Risk and Program Performance, at (303) 312-6969 or
gilbride.patrick@epa.gov.
Status of Corrective Actions in Response to 2008 Report,                                                                      13-P-0057
“Framework for Developing Tribal Capacity Needed in
Indian General Assistance Program”


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Noteworthy Achievements .........................................................................................                  3


   Scope and Methodology.............................................................................................                 3


   Results of Review .......................................................................................................          4


           Status of Actions to Address Recommendation 2-1 .............................................                              4

           Status of Actions to Address Recommendation 2-2 .............................................                              5

           Status of Actions to Address Recommendation 3-1 .............................................                              7

           Effectiveness of Corrective Actions......................................................................                  9


   Recommendation ........................................................................................................            9


   Agency Comments and OIG Evaluation ...................................................................                            10


   Status of Recommendations and Potential Monetary Benefits..............................                                           11




Appendices
   A       Agency’s Response to Draft Report.................................................................                        12


   B       Distribution .........................................................................................................    14

Purpose
            On February 19, 2008, the U.S. Environmental Protection Agency (EPA) 

            Office of Inspector General (OIG) issued Report No. 08-P-0083, Framework for 

            Developing Tribal Capacity Needed in the Indian General Assistance Program. 

            The report included three recommendations to EPA related to the Indian General 

            Assistance Program (GAP): 


               2-1	 Require American Indian Environmental Office (AIEO) to develop and
                    implement an overall framework for achieving capacity, including valid
                    performance measures for each type of tribal entity, and provide
                    assistance to the regions for incorporating the framework into the GAP
                    work plans.

               2-2 	 Require regions to:
                        a.	 Negotiate with tribes to develop environmental plans that reflect
                            intermediate and long-term goals,
                        b.	 Link those plans to annual GAP work plans, and
                        c.	 Measure tribal progress in meeting plans and goals.

               3-1 	 Revise how GAP funding is distributed to tribes to place more emphasis
                     on tribes’ prior progress, environmental capacity needs, and long-term
                     goals.

            On September 30, 2011, EPA’s Office of International and Tribal Affairs, which
            houses AIEO, certified in EPA’s Management Audit Tracking System (MATS) that
            it completed all corrective actions resulting from the 2008 report. This review
            follows up on the 2008 report and EPA’s corrective actions. The objectives of our
            follow-up audit were to determine what corrective actions EPA has implemented to
            address the findings from the prior audit report, and whether the corrective actions
            were effective in addressing the findings from the previous report.

Background

            Indian Environmental General Assistance Program Act

            The Indian Environmental General Assistance Program Act of 1992 provides
            EPA the authority to award grants to Indian tribal governments to build capacity
            to administer environmental regulatory programs. The Act also provides for
            technical assistance from EPA in developing multimedia programs to address
            environmental issues on Indian lands. The purpose of GAP is to establish
            administrative, legal, technical, and enforcement capability needed to implement
            an environmental protection program. Since its inception 20 years ago, GAP has
            become the largest single source of funding for tribal environmental programs at
            over $640 million.



13-P-0057                                                                                       1
                 Under the Act, EPA can award GAP grants to both Indian tribal governments and
                 inter-tribal consortia. The Act defines an Indian tribal government as any Indian
                 tribe, band, nation, or other organized group or community (including any Alaska
                 native village or regional or village corporation) recognized as eligible for the
                 special services provided by the United States to Indians. Some tribes have
                 jurisdiction over land and some do not. The Act defines inter-tribal consortia as a
                 partnership between two or more Indian tribal governments authorized by the
                 governing bodies of those tribes to apply for and receive GAP assistance.

                 EPA issued GAP guidelines in 1994 to provide national policy guidance and
                 criteria for awarding and administering GAP grants. EPA updated the guidelines
                 in 2000 and 2006 to address compliance with grant policies, accountability for
                 environmental results, and consistency with program requirements. The
                 guidelines state that the GAP work plan is the basis for the management and
                 evaluation of performance under grant agreements. EPA’s guidelines include
                 standardized work plan formats that tribes use when they request GAP funding.
                 For purposes of tracking how grant recipients use GAP funds, recipients and EPA
                 regional offices categorize the range of activities into the following areas:

                         Legal
                         Enforcement and Compliance
                         Technical and Non-Administrative
                         Communications
                         Administrative
                         Solid and Hazardous Waste1

                 According to EPA, work plans should state the primary category addressed by
                 each work plan component and by each activity within each component.

                 EPA Policy on Consultation and Coordination with Indian Tribes

                 The White House issued Executive Order 13175, Consultation and Coordination
                 with Indian Tribal Governments, on November 6, 2000, to establish regular and
                 meaningful consultation and collaboration with tribal officials in the development
                 of federal policies that have tribal implications. On November 5, 2009, the
                 President directed each agency to submit a detailed plan of action to implement
                 the policies and directives of Executive Order 13175, as well as an annual
                 progress report on the status of each action included in its plan. EPA issued its
                 EPA Policy on Consultation and Coordination with Indian Tribes (consultation
                 policy) on May 4, 2011. EPA’s policy outlines the key phases of the consultation
                 process and identifies general categories of EPA activities appropriate for
                 consultation, including policies and guidance documents. While the policy does
                 not set required comment periods for consultation, the policy does state that

1
 GAP may not be used for the ongoing implementation of media-specific environmental programs once established
except as otherwise provided. Beyond capacity building, the only allowable implementation activities are for solid
and hazardous waste.


13-P-0057                                                                                                        2
            consultation should occur early enough to allow tribes the opportunity to provide
            meaningful input prior to EPA deciding on how to act on a matter under
            consideration.

Noteworthy Achievements
            Since its launch in 2007, GAP Online has provided grantees and project officers
            (POs) with a centralized tool for creating work plans and reporting progress. The
            Agency provides GAP Online to the tribes through AIEO, and AIEO provided
            training to each region in 2007 and 2008. According to AIEO’s senior advisor, the
            system is a significant management tool that aids both EPA and tribes by
            documenting program priorities and recipient performance. GAP Online facilitates
            review of individual grant work plans and reporting at both the national and
            regional level. It also facilitates the aggregation of information about funded
            activities in active and expired grants to show overall program trends over time.
            Before GAP Online, work plans varied from region to region. AIEO said that GAP
            Online has allowed the work plan structure to evolve with some consistency.

            Tribes are required to enter their final work plans into GAP Online unless the
            grants are included in a Performance Partnership Grant (PPG), which is a single
            grant combining funds from more than one environmental program. AIEO’s senior
            advisor said that approximately 20 percent of tribes receive GAP funding under a
            PPG. A tribe can have multiple components in a work plan. GAP Online requires
            each component to have both intermediate and long-term outcomes/goals, and
            tribes are to enter an estimated cost for each component. Tribes are to report on
            progress made in GAP Online, and regions are to monitor progress and either agree
            or disagree with the progress reported. An AIEO tribal program operations staff
            person said that GAP Online has established a clear chain of custody for tribes and
            regions to manage work plans.

Scope and Methodology
            We performed our review from March to September 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for any findings and conclusions based on our
            objectives. We believe the evidence obtained provides a reasonable basis for the
            observations presented in this report.

            We reviewed relevant laws, regulations, policies, procedures, and guidance
            governing tribal capacity, including the GAP Act of 1992, EPA’s GAP Guidelines
            from 2000 and 2006, and EPA’s August 2011 consultation draft Guidebook for
            Building Tribal Environmental Capacity. We also reviewed the May 2011 EPA
            Policy on Consultation and Coordination with Indian Tribes and AIEO’s timeline
            on developing the GAP guidebook to comply with the policy.




13-P-0057                                                                                       3
            To understand the status of corrective actions taken to address recommendations
            from the 2008 OIG report, we interviewed the 2008 report team and reviewed the
            Agency’s corrective action plan. We interviewed tribal staff in EPA Regions 5, 6,
            9, and 10 on their process in reviewing GAP grants and work plans and measuring
            tribal progress in light of recommendations from the 2008 report. We focused on
            EPA Regions 5, 6, 9, and 10 because the 2008 report included them and because
            they represent the four regions with the largest number of tribes. In addition, the
            four regions received the largest amounts of funding for fiscal year (FY) 2012.
            We also met with AIEO, who provided us a demonstration of GAP Online and
            clarified the GAP funding formula. We also held several discussions with AIEO
            and the four regions to ensure our understanding of the status of actions taken to
            address recommendations from the 2008 report.

Results of Review
            EPA has taken a number of actions to address recommendations from the 2008
            report, as cited in the Agency’s MATS certification memo, which include the
            GAP Online database, GAP guidebook, and GAP guidance. In addition, EPA is
            engaging in tribal consultation consistent with the consultation policy for both the
            GAP guidebook and GAP guidance. While MATS lists all corrective actions as
            completed as of September 30, 2011, the Deputy Assistant Administrator for
            International and Tribal Affairs said EPA does not anticipate full implementation
            of corrective actions until May 2013. The following sections summarize our
            observations on corrective actions EPA has taken to date to address the
            recommendations from the OIG’s 2008 report.

            Status of Actions to Address Recommendation 2-1

            Require AIEO to develop and implement an overall framework for achieving
            capacity, including valid performance measures for each type of tribal entity,
            and provide assistance to the regions for incorporating the framework into
            the GAP work plans.

            According to AIEO staff, EPA’s framework includes the GAP Online database
            (described under “Noteworthy Achievements” above), GAP guidebook, and GAP
            guidance. AIEO’s audit liaison said that AIEO released a draft GAP guidebook to
            the entire Agency in April 2011. In May 2011, the Agency issued its consultation
            policy. EPA is currently in the process of consulting with tribes on the GAP
            guidebook in accordance with the consultation policy. This process gives
            tribes the opportunity to provide input on the draft guidebook. EPA released the
            consultation draft GAP guidebook to tribes in August 2011, and the first round of
            consultation ended in January 2012. The second round of consultation will run
            from November 2012 through January 2013. The Agency plans to update the draft
            guidebook at the close of the second round of consultation and issue the final
            version by May 2013. AIEO’s audit liaison provided the following timeline
            showing past and planned key milestones for the draft guidebook:



13-P-0057                                                                                      4
            Table 1: Key milestones for draft guidebook
                                            Key Milestones                                         Date
             Tribal Environmental Management Guidebook released                                  04/2011
             EPA Policy on Consultation and Coordination with Indian Tribes takes                05/04/11
             effect; published in the Federal Register
             Guidebook for Building Tribal Environmental Capacity circulated internally          06/29/11
             to EPA regions and headquarters
             Consultation and coordination notification letter sent to tribes                    07/22/11
             Consultation Draft Guidebook for Building Tribal Environmental Capacity             08/01/11
             released to tribes; consultation and coordination process begins
             First consultation and coordination extension letter sent to tribes                 08/15/11
             Consultation and coordination reminder letter with project summary sent to          10/28/11
             tribes
             Second consultation and coordination extension letter sent to tribes                11/28/11
             Tribal comments due on guidebook                                                    01/30/12
             Broad-based Agency-wide revision to proposed guidebook (based on                    02/01/12
             comments received from tribes and tribal organizations)
             Proposed final guidance and guidebook released for 90-day tribal review             11/02/12
             and comment
             EPA incorporates final round of tribal comments and finalizes guidance             01/11/13 –
             and guidebook                                                                       04/30/13
             Guidance and Guidebook take effect (according to EPA, the Guidance will             05/01/13
             be applied to the grant process for FY 2014)
            Source: Guidebook timeline provided by AIEO’s audit liaison to OIG on March 30, 2012. The
            timeline was modified based on AIEO’s response to our draft report.

            The draft guidebook describes pathways for a core environmental protection
            program and media-specific programs. The draft also identifies measurable
            indicators to help track progress toward building tribal capacity. According to
            AIEO staff, the updated guidebook will be an appendix to a revised GAP guidance
            document. AIEO staff said the revised guidance will also undergo consultation in
            accordance with the consultation policy.

            Status of Actions to Address Recommendation 2-2

            Require regions to: (a) negotiate with tribes to develop environmental
            plans that reflect intermediate and long-term goals, (b) link those plans to
            annual GAP work plans, and (c) measure tribal progress in meeting plans
            and goals.

            According to AIEO staff, the draft GAP guidebook and revised GAP guidance
            will address the development and use of GAP work plans and include information
            on EPA–tribal environmental plans. AIEO’s Deputy Director said the Agency
            believes that it has implemented this recommendation through oversight of the
            GAP work plans. The Deputy Director added that they have focused on ensuring
            that GAP work plans include intermediate and long-term outcomes/goals, and
            they have also focused on developing and implementing GAP Online. GAP


13-P-0057                                                                                                5
                 Online requires tribes to enter intermediate and long-term outcomes/goals and
                 allows both the tribes and regions to track progress. Tribal staff in the four regions
                 we spoke with said the majority of tribes report on GAP progress quarterly.

                 AIEO’s Deputy Director said the use of EPA–tribal environmental plans is a long-
                 term goal and the Agency is moving in that direction. EPA included information
                 on the development of EPA–tribal environmental plans in the draft guidebook,
                 including suggested components for a comprehensive EPA–tribal environmental
                 plan. AIEO’s Deputy Director and a senior advisor said that while EPA–tribal
                 environmental plans are not currently required, the updated guidebook will
                 establish the expectation that EPA–tribal environmental plans will be developed.
                 AIEO staff also said the updated guidebook would identify required components
                 of each agreement but allow for flexibility in the format of the plans to reflect the
                 variation that exists from one tribe to another.

                 Regional staff said that all tribes not funded under a PPG use GAP Online to enter
                 work plans for approval by the region. Each region provided additional
                 information on work plans and monitoring progress.

                     	   Region 5 Indian Environmental Office staff said that tribes funded under a
                          PPG are still required to develop a GAP work plan in the same format as
                          those entered in GAP Online. The region has been using Tribal
                          Environmental Agreements (TEAs)2 since 1995. TEAs are not required to
                          get GAP funding, but 31 of 35 tribes agreed to TEAs in the last 3-year
                          period and the region anticipates that all tribes will agree to TEAs in the
                          next round. Regional staff said that TEAs link to the GAP work plans. The
                          most recent funding announcement recommended that tribes consider
                          including some activities outlined in their TEA when they develop their
                          GAP work plan. The region looks at whether tribes meet commitments
                          included in the TEAs as well as GAP work plans.

                     	   Region 6 Office of Environmental Justice and Tribal Affairs staff said that
                          tribes funded under a PPG are still required to develop a GAP work plan in
                          the same format as those entered in GAP Online. The region is not requiring
                          tribes to develop EPA–tribal environmental plans, but does allow grant
                          distributions to tribes to help them develop environmental plans. Regional
                          staff also said they follow the process outlined in the draft guidebook to
                          work in partnership with tribes in developing EPA–tribal environmental
                          plans. The region anticipates using a similar template to Region 5’s TEAs.
                          Regional staff said that POs review reporting by tribes to determine
                          progress made under GAP work plans. POs review what tribes report versus
                          work approved in the work plan.


2
  According to Region 5, each TEA is comprised of an introduction describing the purpose and use of the document,
tribal background information, environmental program priorities of the tribe, and an outline of the federal
environmental programs that apply to the tribe.


13-P-0057                                                                                                       6
                     	   Region 9 Tribal Program Office staff said that tribes funded under a PPG
                          are still required to develop a GAP work plan that meets requirements of
                          40 CFR Part 35.3 Regional staff said nearly all tribes funded under a PPG
                          are using the work plan template produced prior to GAP Online. The
                          region encourages tribes to create EPA–tribal environmental plans and
                          update them as needed. It also encourages tribes to include the
                          development of an EPA–tribal environmental plan in their GAP work
                          plans. In its most recent funding notification, the region listed creating an
                          EPA–tribal environmental plan as a one-time mandatory task. Regional
                          staff said that many tribes have environmental plans but many have not
                          been recently updated, and that tribes are hesitant to create new EPA–
                          tribal environmental plans until EPA finalizes the draft guidebook. The
                          region does provide an EPA–tribal environmental plan template to
                          interested tribes but does not require tribes to use this template. The region
                          encourages tribes with environmental plans to reference them when
                          creating GAP work plans. POs perform year-end evaluations to compare
                          negotiated GAP work plans to actual products in the final report. POs also
                          do 4-year summary reports when they close out GAP grants.

                     	   Region 10 Tribal Trust and Assistance Unit staff said that tribes funded
                          under a PPG are still required to develop a GAP work plan. Regional staff
                          said POs assist tribes in developing new GAP work plans on an annual or
                          semiannual basis and negotiate these to reflect capacity building endeavors
                          with distinct outputs toward the tribe’s intermediate and long-term
                          environmental goals. The region encourages tribes to discuss long-term
                          environmental goals, as well as how their GAP work plan components and
                          commitments will support them, in their project narratives. The region is
                          involved with tribes in environmental planning, but it does not require tribes
                          to develop an EPA–tribal environmental plan. Regional staff said it made
                          tribes aware that the draft guidebook discusses EPA–tribal environmental
                          plans. The region’s funding announcements list developing an EPA–tribal
                          environmental plan as a one-time mandatory activity for all grantees.
                          Regional staff said that POs monitor, on a regular basis, each tribe’s
                          progress in accomplishing GAP work plan commitments in producing
                          outputs and deliverables and in achieving anticipated outcomes.

                 Status of Actions to Address Recommendation 3-1

                 Revise how GAP funding is distributed to tribes in order to place more
                 emphasis on tribes’ prior progress, environmental capacity needs, and
                 long-term goals.

                 In response to the 2008 report, EPA said it would develop adjustments to the
                 funding formula, allocations, distributions, and award decisions as appropriate

3
 Title 40, “Protection of Environment,” Part 35, “State and Local Assistance,” covers environmental program grants
for tribes, including GAP.


13-P-0057                                                                                                       7
            based on its revised GAP guidance. AIEO allocates the annual GAP funds to each
            region that has federally recognized tribes. Each region then distributes its
            allocation to eligible applicants.

            AIEO’s Deputy Director said AIEO made an incremental shift in how it
            distributed GAP funds to the regions in FY 2012, explaining that they factored in
            the number of actual GAP recipients rather than just the number of eligible
            recipients. AIEO (a) multiplied the number of federally recognized tribes in each
            region by $110,000 to determine the base level of funding for each region,
            (b) subtracted the total amount of the base level of funding from the total FY 2012
            appropriation for the GAP program, and (c) distributed the remainder to the
            regions based on the number of GAP recipients in the region. AIEO staff said it
            set aside $300,000 for headquarters-selected projects in FY 2012. AIEO’s Deputy
            Director said that additional changes will be made to the formula in future years
            based on internal conversations as well as information that is being entered into
            GAP Online. As more data becomes available through GAP Online regarding
            individual grantee progress, AIEO will consider additional modifications.
            However, as this data is currently unavailable, AIEO does not anticipate making
            large changes to the funding allocation formula at a national level for a few years.

            After AIEO distributes funding to the regions, the regions distribute funding to
            eligible recipients. In its FY 2012 GAP funding allocation memo to the regions,
            AIEO said it expected regions to continue to take into account grant applicants’
            prior progress, environmental capacity needs, and long-term goals when making
            grant funding decisions. Each region distributes funding differently.

               	   Region 5 Indian Environmental Office staff said they use a base funding
                    level of $110,000 per tribe per year to allocate all the money the region
                    receives from AIEO, and use excess funds for special projects.

               	   Region 6 Office of Environmental Justice and Tribal Affairs staff said
                    they have a base level of $75,000–$115,000 per tribe per year listed in the
                    region’s most recent GAP funding announcement. The region distributes
                    funds based on the tribes’ negotiated allocations in their requests for
                    funding. The region bases funding on need, priorities, and past
                    performance. The region also targets different priority areas each year to
                    address concerns in Indian country and will award additional funding to
                    tribes to address these areas.

               	   Region 9 Tribal Program Office staff said they base funding levels to
                    tribes on past performance, work plan complexity, and demonstrated need.
                    To support core GAP work, the PO reviews the tribe’s request, what was
                    requested/awarded the prior year, the tribe’s performance, the tribe’s
                    draws, and the complexity of the work proposed. Regional staff said there
                    is no minimum or maximum funding amount but the region’s most recent
                    funding announcement indicated that most awards range from $75,000–
                    $120,000 per tribe per year. Regional staff said it puts any funds


13-P-0057                                                                                       8
                    remaining after addressing core program needs toward supplemental
                    projects, which may include cleanup of open dumps, purchase of
                    equipment to support the program, or hiring a contractor to perform a one-
                    time activity. Regional staff said they evaluate each supplemental project
                    to determine that it is eligible, reasonable, and allocable to GAP, and then
                    funds as many projects as possible. The region said that for FY 2012 over
                    90 percent of the region’s GAP funds will go to tribes’ base funding for
                    core GAP needs.

               	   Region 10 Tribal Trust and Assistance Unit staff said that the maximum
                    base level funding that tribes can apply for is $125,000 per year, although
                    there are a few tribes who, due to their size, can apply for up to $175,000
                    in base funding. Regional staff said that POs assess the tribe’s needs in
                    each new assistance agreement negotiation. POs review the tribe’s
                    application, current performance, current financial information, and
                    complexity of work proposed. If the tribe’s proposal supports the amount
                    requested, that is what the region will fund. Regional staff said that it has a
                    three-tiered GAP funding approach: (a) funds are applied to tribes’ base
                    needs, (b) funds left over after funding base needs are put toward funding
                    tribal consortia base needs, and (c) any funds left over after funding
                    consortia are put toward special projects.

            Effectiveness of Corrective Actions

            Even though EPA listed all actions as completed in MATS, we could not test
            effectiveness of corrective actions because the draft GAP guidebook and revised
            guidance are still undergoing consultation in accordance with the consultation
            policy. While the Agency has made progress, we believe EPA should have some
            time following full implementation of the final GAP guidance and guidebook
            (planned for May 2013) before we evaluate how regions/tribes operate under the
            updated guidance. AIEO staff said FY 2014 will be the first year for the program
            to fully benefit from the implementation of these corrective actions.

Recommendation
            We recommend that the Assistant Administrator for International and Tribal
            Affairs:

               1.	 Complete implementation of corrective actions initiated in response to the
                   2008 report and update MATS to denote May 2013 as the date to complete
                   implementation of actions to address recommendations 2-1, 2-2, and 3-1
                   from the 2008 report (EPA OIG Report No. 08-P-0083).




13-P-0057                                                                                        9
Agency Comments and OIG Evaluation
            The Office of International and Tribal Affairs accepted our recommendation and
            plans to update MATS with the May 2013 date upon issuance of this final report.
            Appendix A contains the Agency’s full response to our draft report and planned
            actions by the Office of International and Tribal Affairs to address our
            recommendation, which we believe addresses the intent of our recommendation.
            Our recommendation remains open pending the planned completion date on
            actions to address our report recommendation as well as recommendations from
            our 2008 report (EPA OIG Report No. 08-P-0083).




13-P-0057                                                                                 10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1      Action Official           Date      Amount      Amount

     1        9     Complete implementation of corrective actions           O       Assistant Administrator    May 2013
                    initiated in response to the 2008 report and update              for International and
                    MATS to denote May 2013 as the date to complete                       Tribal Affairs
                    implementation of actions to address
                    recommendations 2-1, 2-2, and 3-1 from the 2008
                    report (EPA OIG Report No. 08-P-0083).




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0057                                                                                                                                    11
                                                                                  Appendix A

                 Agency’s Response to Draft Report

                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460



                                                                                  OFFICE OF

                                                                              INTERNATIONAL AND 

                                                                                TRIBAL AFFAIRS




                                       October 26, 2012

MEMORANDUM

SUBJECT:      Response to Office of Inspector General Project Draft Report No. OA-FY12-
              0333, “Status of Corrective Actions in Response to 2008 Report, ‘Framework for
              Developing Tribal Capacity Needed in Indian General Assistance Program’,”
              October 1, 2012

FROM:         Michael Stahl /s/
              Acting Assistant Administrator

TO:           Arthur Elkins, Jr.
              Inspector General

Thank you for the opportunity to respond to the issues and recommendation in the draft report.
Following is a summary of the agency’s overall position, along with its position on the draft
report’s recommendation.

AGENCY’S OVERALL POSITION

The Agency accepts the recommendation in the draft report. Over the last several years we
have been developing and implementing an improved internal control structure for GAP, which
we believe satisfies the recommendations of the original audit. As such, we listed our
corrective actions as completed in MATS and proceeded with our implementation strategy.

A phased approach to implementing the corrective actions was decided as most effective for
complying with the requirements of the Agency’s Consultation Policy. Given the broad nature
and importance of the program there was an extremely high level of interest from tribal
governments in the implementation of the changes to the program. As a result, OITA has led
an extensive, multi-phased implementation approach to allow for two rounds of consultation
with tribes. The last phase of this implementation will end by May 2013.


13-P-0057                                                                                        12
OITA takes our responsibilities related to the GAP audit very seriously and remains committed
to improving operations of the GAP program and accountability for measuring program
performance. Of significant importance to us is determining the effectiveness of the corrective
actions. Given the GAP grant award and performance cycles, testing the effectiveness of the
corrective actions before FY 2016 would yield limited information resulting in an inefficient
use of resources. As previously discussed with both the original Audit Team and the Status
Review Team, OITA expects to make further modifications to the funding distribution after
sufficient data exists under the revised program framework. We strongly recommend that the
OIG consider allowing the program to fully integrate the changes, through at least two award
and performance cycles, prior to conducting further follow-up reviews.

We have included a Technical Comments Attachment to supplement this response.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

No.    Recommendation                      High-Level Intended               Estimated
                                           Corrective Action(s)              Completion by
                                                                             Quarter and FY
1      Complete implementation of          EPA will update MATS to           May 2013
       corrective actions initiated in     denote May 2013 as the date,
       response to the 2008 report         reflecting input from the
       and update MATS to denote           consultation process, to
       May 2013 as the date to             complete implementation of
       complete implementation of          actions that address
       actions to address                  recommendations from the
       recommendations 2-1, 2-2, and       2008 report.
       3-1 from the 2008 report (EPA
       OIG Report No. 08-P-0083).

CONTACT INFORMATION

If you have any questions regarding this response, please contact Karin Koslow, Deputy
Director of the American Indian Environmental Office on 202-564-0303 or Teresa Ruppe,
Audit Follow-Up Coordinator, Office of International and Tribal Affairs at 202-564-6619.

Attachment

cc:

JoAnn Chase, Director, AIEO
Teresa Ruppe, Audit Follow-Up Coordinator, OITA
Karin Koslow, Deputy Director, AIEO
Luke Jones, Senior Advisor, Grant and Technical Assistance Team, AIEO



13-P-0057                                                                                         13
                                                                              Appendix B

                                    Distribution
Office of the Administrator 

Assistant Administrator for International and Tribal Affairs 

Agency Follow-Up Official (the CFO) 

Agency Follow-Up Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Regional Administrator, Region 5 

Regional Administrator, Region 6 

Regional Administrator, Region 9 

Regional Administrator, Region 10 

Deputy Assistant Administrator for International and Tribal Affairs 

Director, American Indian Environmental Office 

Deputy Director, American Indian Environmental Office 

Audit Follow-Up Coordinator, Office of International and Tribal Affairs

Audit Follow-Up Coordinator, Region 5 

Audit Follow-Up Coordinator, Region 6 

Audit Follow-Up Coordinator, Region 9 

Audit Follow-Up Coordinator, Region 10 





13-P-0057                                                                            14
